      EDWARD BYRNE MEMORIAL

 JUSTICE ASSISTANCE GRANT PROGRAM

         GRANTS AWARDED TO

THE OFFICE OF THE GOVERNOR OF KANSAS

           TOPEKA, KANSAS





      U.S. Department of Justice

    Office of the Inspector General

             Audit Division



      Audit Report GR-60-10-003

              May 2010

            EDWARD BYRNE MEMORIAL

   JUSTICE ASSISTANCE GRANT PROGRAM GRANTS

   AWARDED TO THE OFFICE OF THE GOVERNOR OF

                    KANSAS


                     EXECUTIVE SUMMARY



      The Office of the Inspector General, Audit Division, has
completed an audit of the Edward Byrne Memorial Justice Assistance
Grant Program (JAG), Grant No. 2006-DJ-BX-0038 in the amount of
$2,035,999, and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program State Solicitation, Grant
No. 2009-SU-B9-0030 in the amount of $12,660,141, awarded by the
Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to
the Office of the Governor of Kansas. Between October 2005 and
March 2009, OJP awarded the Office of the Governor of Kansas
6 grants totaling $22,298,319. The Kansas Governor’s Grants
Program (KGGP) is a component of the Office of the Governor of
Kansas and is responsible for administering the grant awards.

       The purpose of the JAG Program is to allow states, tribes, and
local governments to support a broad range of activities to prevent
and control crime based on their own local needs and conditions. JAG
funds can be used for state and local initiatives, technical assistance,
training, personnel, equipment, supplies, contractual support, and
information systems for criminal justice for any one or more of the
following purpose areas:

   • Law enforcement programs

   • Prosecution and court programs

   • Prevention and education programs

   • Corrections and community corrections programs

   • Drug treatment programs

   • Planning, evaluation, and technology improvement programs

   • Crime victim and witness programs (other than compensation)
Recovery Act

       On February 17, 2009, the President signed into law the
American Recovery and Reinvestment Act of 2009 (Recovery Act).
The purposes of the Recovery Act are to: (1) preserve and create jobs
and promote economic recovery; (2) assist those most impacted by
the recession; (3) provide investments needed to increase economic
efficiency by spurring technological advances in science and health;
(4) invest in transportation, environmental protection, and other
infrastructure that will provide long term economic benefits; and
(5) stabilize state and local government budgets, in order to minimize
and avoid reductions in essential services and counterproductive state
and local tax increases.

       Through Recovery Act JAG funding, the Department of
Justice (DOJ) focused support on all components of the criminal justice
system, including multi-jurisdictional drug and gang task forces; crime
prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act
JAG funded projects could address crime by providing services directly
to individuals and communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

Audit Results

      The purpose of this audit was to determine whether
reimbursements claimed for costs under the grants were supported;
allowable; and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. The objective of our
audit was to review performance in the following areas: (1) grant
requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures;
(6) property management; (7) supplanting; (8) management of
subrecipients and contractors; (9) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (10) program
performance and accomplishments. We determined that indirect
costs, property management, and management of contractors were
not applicable to these grants.

     As shown in Exhibit 1, the Office of the Governor of Kansas was
awarded a total of $22,298,319 to implement the grant program.
However, based on grant activity, we limited our audit to $14,696,140




                                 - ii ­
in funding awarded under Grant Nos. 2006-DJ-BX-0038 and
2009-SU-B9-0030.1

EXHIBIT 1.	 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
            GRANT PROGRAM GRANTS AWARDED TO THE
            OFFICE OF THE GOVERNOR OF KANSAS
                                AWARD             AWARD
       GRANT AWARD            START DATE         END DATE        AWARD AMOUNT
     2006-DJ-BX-0038          10/01/2005         09/30/2009       $    2,035,999
     2007-DJ-BX-0059          10/01/2006         09/30/2010            3,073,598
     2008-DJ-BX-0001          10/01/2007         09/30/2011            1,111,269
     2008-DJ-BX-0736          10/01/2007         09/30/2011               98,872
     2009-DJ-BX-0092          10/01/2008         09/30/2012            3,318,440
     2009-SU-B9-0030          03/01/2009         02/28/2013           12,660,141

                            Total:                                $22,298,319
Source: OJP Grants Management System (GMS)

      We examined the KGGP’s accounting records, FSRs, Progress
Reports, Recovery Act Reports, and operating policies and procedures
and found:

   •	 The financial management system provides for segregation of
      duties, transaction traceability, system security, and limited
      access.

   •	 The KGGP accounted for and reported program income

      accurately.


   •	 The transactions reviewed were generally properly authorized,
      classified, supported, and charged to the grants.

   •	 All costs associated with payroll and fringe benefits for the pay
      periods reviewed were supported and reasonable.

   •	 The FSRs reviewed under the grants were submitted in a timely
      manner and generally accurate.

   •	 The KGGP adequately addressed its mission of improving and
      supporting law enforcement; prosecution and court; prevention
      and education; corrections and community corrections; drug
      treatment; planning, evaluation, and technology improvement;
      and crime victim and witness programs by awarding a total of

       1
        Our audit objective, scope, and methodology are further discussed in
Appendix I.


                                       - iii ­
     $13,646,190 in 2006 JAG and Recovery Act JAG funding to
     54 subrecipients aimed at addressing the purpose areas
     established in its applications for Grant Nos. 2006-DJ-BX-0038
     and 2009-SU-B9-0030.

      However, we found that the KGGP’s monitoring activities and
management of subrecipient files were not sufficient to prevent
instances of inaccurate Progress and Recovery Act Reports or
unapproved subrecipient expenditures. Specifically, we found:

  •	 Instances of unapproved subrecipient expenditures, including a
     subrecipient that charged 16 positions to the subgrant when
     budget documentation only approved 10. This was subsequently
     remedied with an amendment to the budget, which was
     approved by the KGGP. Additionally, we found that a
     subrecipient was charging and being reimbursed for overtime,
     which was not approved in the subgrant budget documentation.
     This resulted in the subrecipient being reimbursed $29,388 in
     excess of the approved subgrant budget for the period
     October 1, 2009, through December 31, 2009.

  •	 Only three of the six subrecipients sampled provided adequate
     and accurate support regarding Progress Reports submitted to
     the KGGP, two subrecipients did not provide accurate support for
     Progress Reports, and one subrecipient was not able to provide
     any supporting documentation for Progress Reports.

  •	 A change made to a subrecipient financial report was not

     notated, signed, and dated.


  •	 The revised Recovery Act Report covering the period October 1,
     2009, through December 31, 2009, was generally accurate.
     However, we found that only 14 of 26 subrecipients' Job Creation
     and Retention Reports were accurate and supported, while 12 of
     26 subrecipients reported incorrectly on their Job Creation and
     Retention Reports, which are used to calculate the FTEs reported
     on the Recovery Act Report.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope,
and methodology are discussed in Appendix I.




                                - iv ­
                            TABLE OF CONTENTS


INTRODUCTION........................................................................ 1

     Recovery Act........................................................................ 2

     Audit Purpose....................................................................... 2

     Background.......................................................................... 3

     OIG Audit Approach .............................................................. 4

FINDINGS AND RECOMMENDATIONS ....................................... 5

     Internal Control Environment ................................................. 5

          Single Audit ....................................................................6

          Financial Management System...........................................6

     Drawdowns .......................................................................... 6

     Program Income ................................................................... 7

     Grant Expenditures ............................................................... 8

          Personnel Expenses..........................................................8

          Other Direct Costs ...........................................................8

          Supplanting.....................................................................9

     Management of Subrecipients ................................................ 9

          Solicitation Process ........................................................ 10

          Awards Process ............................................................. 10

          Training and Technical Assistance .................................... 12

          Management of Funds .................................................... 12

          Monitoring .................................................................... 12

     Reports ..............................................................................15

          Subrecipient Reporting ................................................... 15

          Financial Status Reports ................................................. 16

          Annual Progress Reports ................................................. 17

          Quarterly Recovery Act Reports ....................................... 18

     Program Performance and Accomplishments ...........................22

     Conclusion ..........................................................................25

     Recommendations ...............................................................27

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......... 28

APPENDIX II - GRANT NO. 2006-DJ-BX-0038 SUBGRANT

              PROJECTS ....................................................... 31

APPENDIX III - GRANT NO. 2009-SU-B9-0030 SUBGRANT 

               PROJECTS ...................................................... 36

APPENDIX IV - OJP'S RESPONSE ............................................ 39

APPENDIX V - KGGP'S RESPONSE........................................... 42

APPENDIX VI - ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO CLOSE THE REPORT................ 44

             EDWARD BYRNE MEMORIAL

    JUSTICE ASSISTANCE GRANT PROGRAM GRANTS

    AWARDED TO THE OFFICE OF THE GOVERNOR OF

                     KANSAS

                 TOPEKA, KANSAS


                              INTRODUCTION



      The Office of the Inspector General, Audit Division, has
completed an audit of the Edward Byrne Memorial Justice Assistance
Grant Program, Grant No. 2006-DJ-BX-0038 in the amount of
$2,035,999, and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program State Solicitation, Grant
No. 2009-SU-B9-0030 in the amount of $12,660,141, awarded by the
Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to
the Office of the Governor of Kansas. 1 The Kansas Governor’s Grants
Program (KGGP) is a component of the Office of the Governor of
Kansas and is responsible for administering the grant awards.

      The Edward Byrne Memorial Justice Assistance Grant (JAG) is a
formula grant program in which the 50 states, the District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto Rico,
and the U.S. Virgin Islands are eligible to apply. 2 The purpose of the
JAG Program is to allow states, tribes, and local governments to
support a broad range of activities to prevent and control crime based
on their own local needs and conditions. JAG funds can be used for
state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice for any one or more of the following purpose areas:

   • Law enforcement programs

   • Prosecution and court programs

   • Prevention and education programs



       1
        Since fiscal year (FY) 2006, BJA has awarded $22,298,319 in Edward Byrne
Memorial Justice Assistance Grant funds to the Office of the Governor of Kansas.
       2
          Formula grant programs are noncompetitive awards distributed to states
based on a specific funding formula. Byrne grant formula awards are based in part on
a state’s or territory’s share of violent crime and population.


                                       -1­
  • Corrections and community corrections programs

  • Drug treatment programs

  • Planning, evaluation, and technology improvement programs

  • Crime victim and witness programs (other than compensation)

Recovery Act

       On February 17, 2009, the President signed into law the
American Recovery and Reinvestment Act of 2009 (Recovery Act).
The purposes of the Recovery Act are to: (1) preserve and create jobs
and promote economic recovery; (2) assist those most impacted by
the recession; (3) provide investments needed to increase economic
efficiency by spurring technological advances in science and health;
(4) invest in transportation, environmental protection, and other
infrastructure that will provide long term economic benefits; and
(5) stabilize state and local government budgets, in order to minimize
and avoid reductions in essential services and counterproductive state
and local tax increases.

       Through Recovery Act JAG funding, the Department of
Justice (DOJ) focused support on all components of the criminal justice
system, including multi-jurisdictional drug and gang task forces; crime
prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act
JAG funded projects could address crime by providing services directly
to individuals and communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

Audit Purpose

       The purpose of our audit was to determine whether costs
claimed under these grants were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) grant requirements;
(2) internal control environment; (3) cash management; (4) program
income; (5) grant expenditures; (6) property management;
(7) supplanting; (8) management of subrecipients and contractors;
(9) Financial Status Reports (FSR), Progress Reports, and Recovery
Act Reports; and (10) program performance and accomplishments.



                                 -2­
We determined that indirect costs, property management, and
management of contractors were not applicable to these grants.

      As shown in Exhibit 1, between October 2005 and March 2009,
the Office of the Governor of Kansas was awarded a total of
$22,298,319 in funding under both the JAG and Recovery Act JAG
Programs. However, based on grant activity, we limited our audit to
$14,696,140 in funding awarded under Grant Nos. 2006-DJ-BX-0038
and 2009-SU-B9-0030. 3

EXHIBIT 1. EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
           GRANT PROGRAM GRANTS AWARDED TO THE
           OFFICE OF THE GOVERNOR OF KANSAS
                               AWARD            AWARD
      GRANT AWARD            START DATE        END DATE          AWARD AMOUNT
    2006-DJ-BX-0038          10/01/2005       09/30/2009         $ 2,035,999
    2007-DJ-BX-0059          10/01/2006       09/30/2010            3,073,598
    2008-DJ-BX-0001          10/01/2007       09/30/2011            1,111,269
    2008-DJ-BX-0736          10/01/2007       09/30/2011               98,872
    2009-DJ-BX-0092          10/01/2008       09/30/2012            3,318,440
    2009-SU-B9-0030          03/01/2009       02/28/2013           12,660,141
                           Total:                                 $22,298,319
Source: OJP Grants Management System (GMS)

Background

       OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership
and programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing
grants for the implementation of these crime fighting strategies. To
support this mission, the BJA provides leadership and assistance to
local criminal justice programs that improve and reinforce the nation’s
criminal justice system, with goals to reduce and prevent crime,
violence, and drug abuse and to improve the way in which the criminal
justice system functions.

      The KGGP administers grant funds and staffs boards and councils
focused on improving and supporting public safety, drug and violence
prevention, crime intervention, treatment, information technology, the
criminal justice system, and crime victim services. By administering
federal and state grants to units of state and local government; Native

       3
        Our audit objective, scope, and methodology are further discussed in
Appendix I.


                                       -3­
American Tribes; and nonprofit, community, and faith-based
organizations, the KGGP aims to enhance the criminal justice system,
improve public safety, support crime victim services, and support drug
and violence prevention programs throughout Kansas.

OIG Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant awards. Unless otherwise stated in
our report, the criteria we audit against are contained in the OJP
Financial Guide, award documents, Code of Federal Regulations, and
Office of Management and Budget Circulars. We tested the KGGP’s:

   •	 internal control environment to determine whether the
      internal controls in place for the processing and payment of
      funds were adequate to safeguard grant funds and ensure
      compliance with the terms and conditions of the grants.

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the KGGP was managing grant
      receipts in accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability
      of costs charged to the grants;

   •	 management of subrecipients to determine how the KGGP
      administered pass through funds;

   •	 Financial Status Reports, Progress Reports, and Recovery
      Act Reports to determine if the required Financial Status
      Reports, Progress Reports, and Recovery Act Reports were
      submitted on time and accurately reflect grant activity; and

   •	 grant objectives and accomplishments to determine if the
      KGGP met or is capable of meeting the grants’ objectives.

     The results of our analysis are discussed in detail in the Findings
and Recommendations section of the report. Our audit objective,
scope, and methodology are discussed in Appendix I.




                                  -4­
              FINDINGS AND RECOMMENDATIONS


       Our audit did not disclose any noncompliance with regard
       to drawdowns and program income. Additionally, we
       found that grant expenditures were generally properly
       authorized, classified, and supported; and FSRs were
       submitted in a timely manner and were cumulatively
       accurate. We found that the KGGP awarded a total of
       $13,646,190 in JAG funding to 54 subrecipients aimed at
       addressing the purpose areas established in its applications
       for Grant Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030. 4
       However, we found that training and technical assistance
       procedures could be utilized and monitoring of
       subrecipients could be enhanced to reduce the likelihood of
       inaccurate Progress and Recovery Act Reports and
       unapproved subrecipient expenditures, including
       reimbursements to one subrecipient of $29,388 in excess
       of the approved subgrant budget. Additionally, we noted
       that changes made to grant-related documentation were
       not always notated, signed, and dated. Finally, we found
       that even though the revised Recovery Act Report covering
       the period October 1, 2009, through December 31, 2009,
       was generally accurate, 12 of 26 subrecipients did not
       report correctly on their Job Creation and Retention
       Reports, which are used to calculate the FTEs reported on
       the Recovery Act Report.

Internal Control Environment

      We reviewed the State of Kansas’s Single Audit Report, policies
and procedures, and financial management system to assess the
KGGP’s risk of noncompliance with laws, regulations, guidelines, and
terms and conditions of the grant. We also interviewed individuals
from the KGGP regarding payroll, purchasing, and accounts payable
and observed the financial management system to further assess risk.


       4
         In its grant applications, the KGGP identified the following general purpose
areas: (1) improving and supporting law enforcement; (2) prosecution and court;
(3) prevention and education; (4) corrections and community corrections; (5) drug
treatment; (6) planning, evaluation, and technology improvement; and (7) crime
victim and witness programs. See Appendices II and III for a complete listing of the
subrecipient awards funded under Grant Nos. 2006-DJ-BX-0038 and
2009-SU-B9-0030.


                                         -5­
Single Audit

      According to Office of Management and Budget (OMB)
Circular A-133, non-federal entities that expend $500,000 or more in
federal awards in a year shall have a single audit conducted. The
State of Kansas’s fiscal year is from July 1 through June 30, and for
FY 2008 the State of Kansas was required to conduct a single audit.
We reviewed the FY 2008 Single Audit Report for the State of Kansas
and found that the state complied, in all material respects, with the
requirements of each of its major federal programs for the year ending
June 30, 2008. There were 14 findings in the FY 2008 Single Audit
Report; however, none of the findings related to the JAG grants, any
other DOJ grant, or the DOJ as a whole.

Financial Management System

      The State of Kansas’s financial management system is the
Statewide Accounting and Reporting System (STARS), which contains
applications for grant management, payroll, and fund transfers
between two state agencies. Based on our review of STARS policies
and procedures, interviews with KGGP personnel, and observation of
the system, STARS appears to provide an adequate system of internal
controls to ensure compliance with applicable requirements of both the
JAG and Recovery Act JAG programs. The financial management
system provides for segregation of duties, transaction traceability,
system security, and limited access.

Drawdowns

      JAG award recipients are permitted to draw down the entire
award amount in a lump sum and place the funds in an interest-
bearing account. We did not note any issues during our analysis of
drawdowns, and noted that the total award amount for Grant
Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030 was drawn down and
placed in interest-bearing accounts on August 14, 2006, and May 20,
2009, respectively. 5




      5
         On December 29, 2009, the KGGP returned the remaining balance of $67.81
to OJP because it was unexpended at the end of the grant period for Grant
No. 2006-DJ-BX-0038.


                                     -6­
Program Income

      According to the OJP Financial Guide, all income generated as a
direct result of an agency-funded project shall be deemed program
income. Interest income on block grants, such as the JAG program
must be accounted for and reported as program income. Program
income may be used to further program objectives, and any
unexpended program income should be remitted to OJP.

       During our review of Grant No. 2006-DJ-BX-0038, we found that
the KGGP earned interest income totaling $115,338. Grant officials
explained that since the entire award amount is drawn down, funds
are placed in an interest-bearing account and any interest earned is
allocated to the appropriate budget units and expended first before
grant award dollars. In addition to earning interest, grant officials
explained that the subrecipients earned program income from asset
forfeitures collected from the drug task forces and fees charged to
offenders from community corrections.

      As shown in Exhibit 2, we confirmed that for Grant
No. 2006-DJ-BX-0038, the KGGP and subrecipients earned and
expended program income totaling $184,944, as of the end of the
grant on December 29, 2009. Additionally, for Grant
No. 2009-SU-B9-0030 we found that the KGGP earned and expended
program income, in the form of interest, totaling $92,257 as of
December 31, 2009. Based on our review, we determined that the
KGGP accounted for and reported program income accurately.

EXHIBIT 2:	 PROGRAM INCOME FOR GRANT
            NOS. 2006-DJ-BX-0038 AND 2009-SU-B9-0030
                                                      PROGRAM INCOME
               PROGRAM INCOME PER GRANT                  AMOUNT
 GRANT NO. 2006-DJ-BX-0038
   KGGP Interest Income                                  $ 115,338
   Subrecipients’ Income                                     69,606
      Total:                                             $ 184,944
 GRANT NO. 2009-SU-B9-0030
   KGGP Interest Income                                  $    92,257
   Subrecipients’ Income                                           0
      Total:                                             $   92,257
Source: KGGP




                                 -7­
Grant Expenditures

      The OJP Financial Guide also serves as a day-to-day
management tool for award recipients and subrecipients in
administering grant programs by establishing the factors affecting the
allowability, reasonableness, and allocability of both direct and indirect
costs charged to DOJ grants.

Personnel Expenses

      We reviewed KGGP’s personnel files and identified 12 individuals
who were paid with funds from Grant No. 2006-DJ-BX-0038, and
4 individuals who were paid with funds from Grant
No. 2009-SU-B9-0030. For each grant, we traced labor costs to
timesheets for two nonconsecutive pay periods in order to verify these
costs were computed correctly, properly authorized, accurately
recorded, and properly allocated to the grants. 6 Based on our review,
we found that all costs associated with payroll and fringe benefits for
the pay periods selected were supported and reasonable.

Other Direct Costs

      We also reviewed the general ledger accounts for Grant
Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030, and selected a sample
of 50 transactions from each grant, totaling $2,116,924. 7 For each
grant, our sample included 25 transactions incurred by the KGGP and
25 incurred by subrecipients. We found that the transactions reviewed
were generally properly authorized, classified, supported, and charged
to the JAG and Recovery Act JAG programs.

      The KGGP spent $1,470,244 in Recovery Act funding as of
November 25, 2009, and obligated $11,527,980 in subawards.
Specifically, the KGGP obligated $1,106,081 for law enforcement;
$2,230,557 for prosecution and courts; $7,209,774 for corrections and
community corrections; and $981,568 for planning, evaluation, and
technology improvement.


      6
          For Grant No. 2006-DJ-BX-0038, we reviewed a sample of six employees
paid during each pay period ending September 22, 2007, and August 23, 2008. For
Grant No. 2009-SU-B9-0030, we reviewed all employees paid during the pay periods
ending July 11, 2009, and November 14, 2009.
      7
        Specifically, we reviewed $767,223 of $2,151,269 expenses for Grant
No. 2006-DJ-BX-0038, and $1,349,701 of $1,470,244 expenses for Grant
No. 2009-SU-B9-0030.


                                      -8­
Supplanting

       According to OJP, federal funds must be used to supplement
existing state and local funds for program activities and must not
replace those funds that have been appropriated for the same
purpose. To determine whether the KGGP used grant funds to
supplant existing state and local funds for program activities, we
reviewed the state budgets for FYs 2006 and 2007 for Grant
No. 2006-DJ-BX-0038, as well as the state budgets for FYs 2009 and
2010 for Grant No. 2009-SU-B9-0030. Based on our review of the
state budgets, we found no indication that the KGGP used federal
funds to supplant state funds.

Management of Subrecipients

      In order to appropriately manage subrecipients, the KGGP
implemented the Kansas Governor’s Grants Program Grant
Procedures. 8 These procedures detail the activities applicable to
subawards including: (1) solicitation/application, (2) grant review and
decision, (3) reporting procedures, (4) payment procedures, (5) grant
budget revision, (6) grant compliance procedures, and (7) closeout
procedures. KGGP officials explained that the policies and procedures
used to manage subrecipients for previous and current JAG grants are
the same policies and procedures being used to manage the
subrecipients of the Recovery Act JAG grant. However, due to the
additional requirements in the Recovery Act JAG grant, policies and
procedures have been put in place to comply with those requirements.
An example of this includes the development of the Job Creation and
Retention Report Form and the reporting requirements established to
complete and submit this form.




       8
          We reviewed the five revisions to the Kansas Governor’s Grants Program
Grant Procedures manual effective for the JAG grants, beginning with the manual
revised January 2005, which was effective for the October 1, 2005 award start date for
Grant No. 2006-DJ-BX-0038. We determined that there were no significant procedure
changes made in the five revisions to the manual.


                                        -9­
Solicitation Process

      We determined that KGGP officials solicited applications for grant
funding under both Grant Nos. 2006-DJ-BX-0038 and
2009-SU-B9-0030. KGGP officials stated that the solicitations were
placed in the Kansas State Register and awards were made on a
competitive basis. The KGGP’s plans to award subgrants for Grant
Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030 are listed in Exhibit 3.

EXHIBIT 3:	 KGGP PLANS TO AWARD SUBGRANTS FOR GRANT
            NOS. 2006-DJ-BX-0038 AND 2009-SU-B9-0030

 Grant No. 2006-DJ-BX-0038
 Date Awarded to KGGP 9                                     March 1,    2006
 Date of State-level solicitation to subrecipients         March 16,    2006
 Date that applications are required to be returned         April 24,   2006
 Date that awards were planned to be made                     July 1,   2006

 Grant No. 2009-SU-B9-0030
 Date Awarded to KGGP9                                      April 29,   2009
 Date of State-level solicitation to subrecipients           May 28,    2009
 Date that applications are required to be returned         June 16,    2009
 Date that awards were planned to be made                     July 1,   2009
Source: KGGP

      Based on our review of the solicitations for subrecipients, we
found that the solicitations accurately and fully describe the grant
program, requirements of the program, and that awards were planned
to be awarded promptly.

Awards Process

       According to KGGP officials and the Kansas Governor’s Grants
Program Grant Procedures, the awarding process for subrecipients is
as follows:




       9
          BJA awarded Grant No. 2006-DJ-BX-0038 on March 1, 2006; however, the
award period started on October 1, 2005. Additionally, for Grant
No. 2009-SU-B9-0030, BJA awarded the grant on April 29, 2009; however, the award
period started on March 1, 2009.


                                       - 10 ­
   1. The applications are reviewed for completeness. 10

   2. Reviewers review each application and make recommendations
      to the Kansas Criminal Justice Coordinating Council (KCJCC). 11

   3. The KCJCC conducts a review of each application.

   4. The KCJCC then confirms the amount of money available.

   5. The KCJCC meets to discuss reviewers’ recommendations,
      discuss the KCJCC’s review of applications, and to determine
      which subrecipients will receive funding, including the amount of
      the award.

      A KCJCC official explained that when selecting subrecipient
projects, the KCJCC considers annual needs and social trends, as
these can influence what priorities are given to subrecipient selection.
Therefore, funding for subrecipient projects may not fall into each
purpose area. We reviewed a sample of 20 applications for Grant
Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030. For each grant, we
selected five applications that were awarded subgrant funding and
five applications that were denied or awarded partial subgrant
funding. Additionally, for each application we requested any
documentation, including meeting minutes from the KCJCC regarding
the selection of subgrant applications. Based on our review, we found
that the KGGP followed the policies outlined above for funding
applications under Grant Nos. 2006-DJ-BX-0038 and
2009-SU-B9-0030.




       10
         If an application is incomplete it is not immediately denied; however, if
awarded, special conditions relating to the missing information are added to the award
documentation and are required to be submitted prior to the subrecipient’s use of
funds.
       11
           The KGGP is responsible for administering the JAG grants and providing
staffing for the KCJCC. The KCJCC was created by the 1994 Legislature and is
responsible for overseeing criminal justice issues in the state. One of the duties of the
KCJCC is to develop and oversee reporting of all criminal justice federal funding
available to the state or local units of government including the designation and
functions of administering the BJA grant programs. The members of the KCJCC are
statutorily appointed and consist of the Governor or designee, the Chief Justice of the
Supreme Court or designee, the Attorney General or designee, the Secretary of
Corrections, the Superintendent of the Highway Patrol, the Commissioner of Juvenile
Justice Authority, and the Director of the Kansas Bureau of Investigation.


                                         - 11 ­
Training and Technical Assistance

      According to the Kansas Governor’s Grants Program Grant
Procedures, KGGP staff assists in providing on-going technical
assistance to subrecipients. Technical assistance is provided by
telephone, e-mail, in writing, or in person, and all contact is recorded
in the KGGP’s grant management system. KGGP officials provided
examples of training and technical assistance relating to the use of
each reporting form with an emphasis on the Job Creation and
Retention Report Form used for the Recovery Act. However, based on
the issue identified in the Monitoring section of this report, in our
judgment, the KGGP should utilize its training and technical assistance
procedures to reduce the likelihood of inaccurate Progress and
Recovery Act Reports.

Management of Funds

      According to the Kansas Governor’s Grants Program Grant
Procedures, grant payments to subrecipients generally occur on a
monthly basis. A KGGP official explained that grant payments are
made based on the monthly financial reports submitted by
subrecipients, which must be reviewed and approved by KGGP officials
before payments are processed.

      As mentioned previously, we selected a sample of
50 transactions from each grant, 25 of which were incurred by
subrecipients. We found that the subrecipient transactions reviewed
were generally properly authorized, classified, supported, and charged
to both Grant Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030. Based
on our testing, we determined that the KGGP’s process for
management of funds appears sufficient to ensure accountability for
subrecipients' requests for funds.

Monitoring

       Grant monitoring is an essential tool to ensure that grant
programs are implemented, objectives are achieved, and grant funds
are properly expended. To this end, OJP requires that sub awards be
monitored throughout the life of the grant to ensure that: (1) the
subrecipient complies with the programmatic, administrative, and
fiscal requirements of the relevant statutes, regulations, policies, and
guidelines; (2) programs initiated by the subrecipient are carried out
in a manner consistent with the relevant statutes, regulations, policies,
and guidelines of the program; (3) the subrecipient is provided


                                 - 12 ­
guidance on policies and procedures, grant program requirements,
general federal regulations, and basic programmatic, administrative,
and financial reporting requirements; and (4) any problems that may
impede the effective implementation of grant programs are identified
and resolved.

     According to the Kansas Governor’s Grants Program Grant
Procedures, the following monitoring activities are performed:

   •	 Grant Compliance Policies and Procedures – KGGP staff
      assists in providing on-going technical assistance to
      subrecipients. Technical assistance is provided by telephone,
      e-mail, in writing, or in person, and all contact is recorded in the
      KGGP’s grant management system.

   •	 On-Site Grant Project Compliance Reviews – On-site
      reviews include interviews of subrecipient staff, review and
      verification of programmatic and statistical information to
      determine progress toward meeting project objectives, and
      review of financial documentation for a random 3 months of
      grant activity for approved and allowable costs. 12

   •	 Desk Grant Project Compliance Reviews – Desk Reviews
      include a review and verification of financial, programmatic, and
      statistical documentation over a predetermined 3-month period
      for approved and allowable costs and for progress toward
      meeting proposed objectives.

       KGGP officials explained that currently there is one dedicated
staff analyst responsible for monitoring the subrecipients for all of the
JAG grants and another staff analyst responsible for monitoring the
subrecipients for the Recovery Act JAG grant. 13 These staff analysts
use a standard Grant Project Compliance Report Form for monitoring
purposes, which addresses areas including:




       12
           According to Kansas Governor’s Grants Program Grant Procedures, every
effort is made to ensure that each subrecipient receives at least one site visit or desk
compliance review annually.
       13
         In addition to the dedicated staff analysts, additional KGGP staff provides a
percentage of their time to each grant.


                                         - 13 ­
   •   COMMUNITY INVOLVEMENT
   •   MONITORING PROGRAM ACTIVITY AND ACCOMPLISHMENTS
   •   CURRENT AUDIT STATUS
   •   FINANCIAL SYSTEM AND ACCOUNTING POLICIES AND PROCEDURES
   •   PERSONNEL PAID WITH GRANT FUNDS
   •   BUDGETED ITEMS PAID WITH GRANT FUNDS


       We reviewed 5 on-site monitoring reports, including 3 of
45 monitoring reports for Grant No. 2006-DJ-BX-0038, and the only
2 monitoring reports completed as of the beginning of our fieldwork for
Grant No. 2009-SU-B9-0030. Based on our review of the monitoring
reports, findings noted in these reports, and closure of findings
recorded in the KGGP’s grant management system, we determined
that monitoring procedures had been properly executed and any
findings or recommendations regarding subrecipient site visits were
corrected. However, we identified areas in which the KGGP should
consider enhancing its subrecipient monitoring activities to reduce the
likelihood of inaccurate report data and unapproved subrecipient
expenditures.

       As described in the Kansas Governor’s Grants Program Grant
Procedures, Progress and Financial Reports are to be reviewed and
verified during site visits and desk reviews. As noted in the Reports
section of this report, we reviewed the accuracy of subrecipient
Progress Reports submitted for Grant No. 2006-DJ-BX-0038 and found
that of the six subrecipients reviewed, two subrecipients did not
provide accurate support, and one subrecipient was not able to provide
any supporting documentation for Progress Reports. Additionally, we
determined that the revised Recovery Act Report covering the period
October 1, 2009, through December 31, 2009, was generally accurate.
However, we noted minor discrepancies with documentation to support
hours funded using Recovery Act funds for 12 of the 26 subrecipients.

       Furthermore, while reviewing the supporting documentation
provided by the subrecipients, we identified inaccuracies in the
Recovery Act Report that KGGP officials were unaware of. For
example, a subrecipient had been charging 16 positions to the
subgrant when budget documentation had only approved 10. After we
notified the KGGP, the KGGP contacted the subrecipient, who
explained that they were able to fund the additional positions because
the original estimate in the subgrant application was based on the
assumption that all positions would be allocated 100 percent to the


                                  - 14 ­
grant. It was later determined that the positions are allocated
80 percent to juvenile supervision, with the balance allocated to other
activities, and as a result 6 additional positions could be funded with
the subaward. Subsequently, the subrecipient requested an
amendment to its budget and the amendment was approved by the
KGGP.

      Additionally, we found that a subrecipient was charging and
being reimbursed for overtime, which was not approved in the
subgrant budget documentation. Instead, the budget covered 2 years
and specified an hourly rate, funding 6 positions for 4,160 hours and
1 position for 3,200 hours, plus fringe benefits. Using the information
in the approved subgrant budget and the subrecipient’s financial
reports, we determined that for the period October 1, 2009, through
December 31, 2009, this subrecipient claimed on its financial reports
and was reimbursed $29,388 in excess of the approved subgrant
budget. In our judgment, the KGGP should work with the subrecipient
to remedy the excess reimbursements received for overtime not
approved in the subgrant budget.

      The inaccuracies identified during our review of the Progress and
Recovery Act Report supporting documentation, indicated that the
monitoring practices are not adequate to prevent discrepancies in
Progress and Recovery Act Reports. Therefore, based on the
discrepancies noted above, we recommend that the KGGP enhance its
subrecipient monitoring activities to reduce the likelihood of inaccurate
Progress and Recovery Act Reports or unapproved subrecipient
expenditures.

Reports

      According to the OJP Financial Guide, award recipients are
required to submit both financial and program reports. These reports
describe the status of the funds and the project, compare actual
accomplishments to the objectives, and report other pertinent
information. We reviewed the FSRs, the annual Progress Reports, and
the Recovery Act Reports submitted by the KGGP to determine
whether each report was timely and accurate.

Subrecipient Reporting

      According to the Kansas Governor’s Grants Program Grant
Procedures, subrecipients are notified of the grant reporting
requirements prior to the start of a grant award project period.


                                 - 15 ­
Additionally, reporting requirements packets are emailed to each
subrecipient, along with grant award notification and grant assurances.
Procedures, due dates, and reporting forms are included in the grant
reporting requirements packet. The KGGP’s grant management system
monitors and notifies subrecipients of any overdue reports. Our review of
the state's process for managing subrecipient Recovery Act Reports,
Progress Reports, and financial reports found that these polices
generally ensured timely and accurate reports. However,
discrepancies regarding the accuracy of reports are detailed in the
following sections of this report.

Financial Status Reports

       According to the OJP Financial Guide, quarterly FSRs are due no
later than 45 days after the end of the quarter, with the final FSR due
within 90 days after the end date of the award. We reviewed the
timeliness of the last four FSRs submitted during the award period for
Grant No. 2006-DJ-BX-0038 and the last three FSRs submitted during
the award period for Grant No. 2009-SU-B9-0030. Based on our
review, we found that the KGGP submitted each report in a timely
manner.

       We also reviewed the accuracy of the last four FSRs submitted
during the award period for Grant No. 2006-DJ-BX-0038 and the last
three FSRs submitted during the award period for Grant
No. 2009-SU-B9-0030. Based on our review, we found that FSRs
submitted under Grant Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030
were generally accurate. However, as shown in Exhibit 4, we
identified a minor discrepancy that carried itself through three of the
four FSRs reviewed for Grant No. 2006-DJ-BX-0038.

EXHIBIT 4. FSR ACCURACY FOR GRANT NO. 2006-DJ-BX-0038
                                            CUMULATIVE      DIFFERENCE
                            CUMULATIVE     EXPENSES PER   BETWEEN FSRS &
 FSR      FSR REPORT       EXPENSES PER     ACCOUNTING      ACCOUNTING
 NO.    PERIOD END DATE        FSR            RECORD         RECORDS
 13       12/31/2008        $1,868,901      $1,868,551         $350
 14       03/31/2009         1,907,044       1,906,694          350
 15       06/30/2009         1,963,818       1,963,468          350
 16       09/30/2009         2,035,931       2,035,931            0
Source: GMS and KGGP

      We asked KGGP officials about the discrepancy and they
provided a document from a subrecipient’s grant file with handwritten



                                  - 16 ­
changes to explain the difference between the FSRs and supporting
documentation. During our initial review, we retrieved the same
document from that subrecipient’s file; however, there was no
indication when these changes occurred. Although, the new document
provided by the KGGP explained that based on supporting
documentation received at a later date, the FSR was revised and
appeared to reconcile the difference; in our judgment, any changes
that are made to FSRs or any other documents in the subrecipient
grant files should be notated, signed, and dated in order to track
changes in grant-related documentation.

       In spite of the minor discrepancy noted above, we found that the
final FSR submitted was accurate. Since there is no cumulative
difference between what was reported on the FSRs and grant
expenditures as of September 30, 2009, we take no exception to the
accuracy of the FSRs submitted under this grant.

Annual Progress Reports

       OJP requires all JAG recipients to submit annual progress
reports. For FY 2008 and prior, the permanent annual reporting period
for all state and local JAG awards is January 1 through December 31,
with reports due March 31. For FY 2009 and forward, including
Recovery Act JAG grants, state recipients must submit annual progress
reports and quarterly Performance Metric Tool (PMT) reports. The
annual progress reporting period is the award start date through
September 30, with reports due November 29. The quarterly PMT
reports are due on the 30th of the month following the close of a
quarter. State recipients may use the four PMT reports to satisfy the
annual reporting requirement by uploading the reports into the OJP
Grant Management System.

      We reviewed the last two Progress Reports submitted during the
award period for Grant No. 2006-DJ-BX-0038, and the first
Performance Measurement Tool Report submitted for Grant
No. 2009-SU-B9-0030, and found that the KGGP submitted each
report in a timely manner.

      KGGP officials explained that in order to obtain all necessary
information to complete the Progress Report, subrecipients are
required to submit quarterly Progress Reports. KGGP officials compile
these reports in a summary spreadsheet that is used to prepare the
annual Progress Report. In order to verify the accuracy of the KGGP’s
annual Progress Reports, we selected a sample of 6 of the


                                - 17 ­
48 subgrants awarded funding from Grant No. 2006-DJ-BX-0038. We
verified performance data reported in the last four quarterly Progress
Reports by comparing the reported data to supporting documentation
provided by each subrecipient. We found that three of the six
subrecipients sampled provided adequate and accurate support
regarding Progress Reports submitted to the KGGP, two subrecipients
did not provide accurate support for Progress Reports, and one
subrecipient was not able to provide any supporting documentation for
Progress Reports. We discussed these issues with KGGP officials who
concurred and could not explain why the subrecipients were unable to
support the reported information. This matter is discussed further in
the Monitoring section of this report.

Quarterly Recovery Act Reports

      In addition to standard reporting requirements, grantees
receiving Recovery Act funding must also submit quarterly reports,
which require both financial and programmatic data specific to
Recovery Act activities. According to BJA and OMB guidance, Recovery
Act Reports are due 10 days after the close of each quarter. 14

      We reviewed the last two Recovery Act Reports for timeliness
and found that the KGGP submitted each report in a timely manner.
The KGGP officials explained that in order to have timely completion
and submission of the quarterly Recovery Act Reports, subrecipients
are required to submit the information related to the jobs funded by
the Recovery Act to the KGGP 5 days after the end of the quarter. In
order to expedite this process and ensure comparable data, the KGGP
developed a Job Creation and Retention Report Form for subrecipients
to complete and submit through the KGGP’s grant management
system. After the KGGP receives the subrecipients’ reports, they have
5 days to compile the information, complete the Recovery Act Report,
and submit on FederalReporting.gov. The KGGP officials explained
that they do not have sufficient time and resources in those remaining
5 days to verify the subrecipients’ data for accuracy. 15



       14
          According to FederalReporting.gov guidance, the recipient reporting due
date of January 10, 2010, was extended to January 22, 2010.
       15
          Prior to the January 2010 Recovery Act Report submission, the OMB issued
Memorandum 10-08, which beginning February 2, 2010, allows for the “continuous
corrections of data” submitted to FederalReporting.gov. “Continuous corrections of
data” allows for corrections of data submitted to FederalReporting.gov only during the
current reporting quarter.


                                        - 18 ­
      As a result, we reviewed the most recent Recovery Act Report
for accuracy. According to OMB guidance, the reports aim to provide
transparency into the use of these funds. The Recovery Act Reports
are required to include the following information.

   •	 Total amount of funds received and the amount of funds spent
      on projects and activities.

   •	 A list of those projects and activities funded by name, including a
      description, completion status, and estimates on jobs created or
      retained.

   •	 Details on subawards and other payments.

      In the Recovery Act Reports, the data pertaining to jobs created
and retained is reported as Full Time Equivalents (FTE). According to
OMB Memorandum 10-08, dated December 18, 2009, the formula for
calculating FTEs is represented as follows:

  TOTAL NUMBER OF HOURS WORKED                 QUARTERLY HOURS
   AND FUNDED BY RECOVERY ACT          ÷        IN A FULL-TIME      =      FTES
    WITHIN REPORTING QUARTER                      SCHEDULE 16


      In order to report the number of FTEs funded by the Recovery
Act, the KGGP utilizes a Job Creation and Retention Report Form, to
gather information from the subrecipients. For each position funded
with Recovery Act funds, the subrecipients report the number of hours
worked for the quarter on the Job Creation and Retention Reports.
The KGGP uses the hours reported on the Job Creation and Retention
Reports, along with Administration hours, to calculate the number of
FTEs to be reported on the Recovery Act Report. 17

      In the KGGP’s original Recovery Act Report submission for the
period, October 1, 2009, through December 31, 2009, dated on
January 8, 2010, the KGGP reported 176.636 FTEs created or retained.
In order to verify the total number of FTEs reported by the KGGP on
the Recovery Act Report, we requested all subrecipients’ Job Creation

      16
           OMB Memorandum 10-08 describes the calculation for Quarterly Hours in a
Full-time Schedule as 520 hours (2,080 hours annually divided by 4 quarters).
      17
          The KGGP administers Grant No. 2009-SU-B9-0030 and is permitted to use
up to 10 percent of the award for administration of the grant. Therefore, the KGGP
must include the quarterly administration hours when calculating the FTEs funded by
the Recovery Act before reporting this amount on the Recovery Act Report.



                                      - 19 ­
and Retention Reports and supporting documentation. After we began
verifying the hours reported by the subrecipients on the Job Creation
and Retention Reports, we identified discrepancies regarding the total
number of hours worked. As a result, the KGGP chose to review
supporting documentation in order to verify subrecipients’ data and
submit a revised Recovery Act Report. The revised Recovery Act
Report for the period, October 1, 2009, through December 31, 2009,
submitted on February 4, 2010, showed 175.568 FTEs created or
retained. We reviewed the revised Recovery Act Report for accuracy
and noted minor discrepancies regarding the total number of FTEs
reported.

       As shown in Exhibit 5, we determined that 14 of
26 subrecipients' Job Creation and Retention Reports were accurate
and supported, while 12 of 26 subrecipients reported incorrectly on
their Job Creation and Retention Reports, which are used to calculate
the FTEs reported on the Recovery Act Report. We also found that
KGGP officials reported accurate and supported hours in regards to the
administration of the grant.




                                - 20 ­
EXHIBIT 5. ACCURACY OF FTEs REPORTED FOR OCTOBER 1,
           2009, THROUGH DECEMBER 31, 2009 18
                       NUMBER OF                            TOTAL
  SUBRECIPIENT         POSITIONS        TOTAL FTES       SUPPORTED
    NUMBER              FUNDED           REPORTED           FTES       DIFFERENCE
  RA-JAG-02 19             1                .038             .038            0
  RA-JAG-03                1                .513             .497         .016
  RA-JAG-04                1                .974             .973         .001
  RA-JAG-05                1                .271             .271            0
  RA-JAG-06 20             0                   0                0            0
  RA-JAG-07                1               1.070            1.070            0
  RA-JAG-08                1                .003             .223        -.220
  RA-JAG-0920              0                   0                0            0
  RA-JAG-1020              0                   0                0            0
  RA-JAG-11                1               1.015            1.015            0
  RA-JAG-1220              0                   0                0            0
  RA-JAG-13                1                .236             .267        -.032
  RA-JAG-14                3               3.031            3.154        -.123
  RA-JAG-15                4                .508             .454         .053
  RA-JAG-1620              0                   0                0            0
  RA-JAG-17                1               1.046            1.021         .025
  RA-JAG-18                2               2.031            2.031            0
  RA-JAG-19                3               2.640            2.640            0
  RA-JAG-20                6               4.026            3.983         .043
  RA-JAG-21               58              56.986           57.018        -.033
  RA-JAG-2220              0                   0                0            0
  RA-JAG-23                7               8.477            7.207        1.270
  RA-JAG-24               16              12.393           12.254         .139
  RA-JAG-25                0 21           68.970           68.556         .414
  RA-JAG-26               11               9.127            9.127            0
  RA-JAG-27                1               1.015            1.015            0
  Administration           1 22            1.197            1.197            0
  Total                   — 23          175.568          174.013        1.555
Source: Recovery.gov, KGGP, and subrecipients


       18
         Any differences in Exhibit 5 are due to rounding. The sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.
       19
         During our review, KGGP officials informed us that subrecipient number
RA-JAG-01 declined the subaward. As a result, subawards made under Grant
No. 2009 SU-B9-0030 started with subrecipient number RA-JAG-02.
       20
            These subrecipients had no activity during the period.
       21
           The award received by subrecipient number RA-JAG-25 funded 0 positions;
instead, it was to reduce the number of furlough days.
       22
         Administration funds one staff analyst responsible for monitoring the
Recovery Act JAG subrecipients and other KGGP personnel’s time allocated to the
Recovery Act JAG grant.
       23
          We do not report a total for the number of positions funded because
subrecipient number RA-JAG-25 was to reduce furlough days.


                                         - 21 ­
      Based on our review, we determined that the Recovery Act
Report covering the period October 1, 2009, through December 31,
2009, was generally accurate. However, because we noted minor
discrepancies with documentation to support hours funded using
Recovery Act funds for 12 of the 26 subrecipients; in our judgment,
the KGGP should consider additional monitoring activities to ensure
that more serious discrepancies do not occur and future submissions
to FederalReporting.gov are as complete and accurate as possible.
Additionally, we recommend the KGGP utilize the continuous correction
of data rule to ensure the Recovery Act FTE data reported to
FederalReporting.gov is verified and accurate. This matter is
discussed further in the Monitoring section of this report.

Program Performance and Accomplishments

      The KGGP ensures funds are used in accordance with JAG
requirements by first awarding subgrants within the allowable JAG
purpose areas described in the BJA solicitation. These purpose areas
are also described in the KGGP’s JAG solicitations. Next, the KGGP
ensures the funds are used in accordance with JAG requirements by
monitoring the subrecipients and ensuring expenses are used in
accordance with the subaward. Monitoring is through On-Site Grant
Project Compliance Reviews, Desk Grant Project Compliance Reviews,
and review of subrecipient progress and financial reports.

       In order to evaluate program performance under both Grant
Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030, we interviewed KGGP
officials regarding the expected program outcomes. According to the
purpose statements provided by the KGGP, we found that the KGGP
utilized Grant No. 2006-DJ-BX-0038 to address the following:




                               - 22 ­
    •    LAW ENFORCEMENT PROGRAMS - TO CONTINUE SUPPORT OF DRUG TASK FORCES
         AND EQUIPMENT NEEDS OF LAW ENFORCEMENT

    •    PLANNING, EVALUATION, AND TECHNOLOGY IMPROVEMENT PROGRAMS - TO
         CONTINUE THE ENHANCEMENT AND SUPPORT OF THE CRIMINAL JUSTICE
         INFORMATION SYSTEM

    •    DRUG TREATMENT PROGRAMS - TO CONTINUE EFFORTS THAT ADDRESS
         TREATMENT EFFORTS AS AN ALTERNATIVE TO INCARCERATION

    •    PROSECUTION AND COURT PROGRAMS - TO ENHANCE THE PROSECUTION AND
         COURT EFFORTS OF THE CRIMINAL JUSTICE SYSTEM

    •    CORRECTIONS AND COMMUNITY CORRECTIONS PROGRAMS - TO ASSIST THE
         STATE AND LOCAL CORRECTIONS PROGRAMS IN WORKING WITH OFFENDERS AND
         CRIME VICTIMS

    •    PREVENTION AND EDUCATION PROGRAMS - TO PROVIDE RESOURCES FOR THE
         PREVENTION OF CRIME



      KGGP officials stated that grant funding was provided to each of
these six purpose areas. 24 As shown in Exhibit 6 and described in
Appendix II, we determined that JAG funds were awarded and
expended by subrecipients within each purpose area mentioned. 25




        24
         See Appendices II and III for a breakdown by purpose area of awards made
under Grant Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030.
        25
          A KGGP official explained that for Grant No. 2006-DJ-BX-0038, the KGGP
awarded $2,118,210 in subgrants, inclusive of funds that were deobligated and
reobligated, cumulatively over a four-year period. At the end of the federal grant
period, $1,972,704 of the subawards had been expended by the subrecipients.


                                      - 23 ­
EXHIBIT 6. GRANT NO. 2006-DJ-BX-0038 EXPENDITURES BY
           PURPOSE AREA




Source: KGGP

      Also, KGGP officials stated that the overall expected program
outcomes for the Recovery Act JAG is job retention and job creation in
the following seven JAG purpose areas:

   •   LAW ENFORCEMENT PROGRAMS
   •   PROSECUTION AND COURT PROGRAMS
   •   PREVENTION AND EDUCATION PROGRAMS
   •   CORRECTIONS AND COMMUNITY CORRECTIONS PROGRAMS
   •   DRUG TREATMENT AND ENFORCEMENT PROGRAMS
   •   PLANNING, EVALUATION, AND TECHNOLOGY IMPROVEMENT PROGRAMS
   •   CRIME VICTIM AND WITNESS PROGRAMS


       As shown in Exhibit 7 and described in Appendix III, we
determined that the Recovery Act JAG funds were obligated to
subrecipients within four of the seven purpose areas mentioned. A
KGGP official explained that the subaward application allows for
applicants to apply in any of the seven purpose areas; however, since
not all applications were approved, the KGGP only funded subawards
in four purpose areas under Grant No. 2009-SU-B9-0030.


                                  - 24 ­
EXHIBIT 7. GRANT NO. 2009-SU-B9-0030 OBLIGATED BY
           PURPOSE AREA




Source: KGGP

      By awarding $13,646,190 in JAG funding to 54 subrecipients
aimed at improving and supporting law enforcement; prosecution and
court; prevention and education; corrections and community
corrections; drug treatment; planning, evaluation, and technology
improvement; and crime victim and witness programs, we believe the
KGGP adequately addressed the purpose areas established in its
applications for Grant Nos. 2006-DJ-BX-0038 and 2009-SU-B9-0030.

Conclusion

      We examined the KGGP’s accounting records, FSRs, Progress
Reports, Recovery Act Reports, and operating policies and procedures
and found:

  •	 The financial management system provides for segregation of
     duties, transaction traceability, system security, and limited
     access.

  •	 The KGGP accounted for and reported program income

     accurately.





                               - 25 ­
  •	 The transactions reviewed were generally properly authorized,
     classified, supported, and charged to the grants.

  •	 All costs associated with payroll and fringe benefits for the pay
     periods reviewed were supported and reasonable.

  •	 The FSRs reviewed under the grants were submitted in a timely
     manner and generally accurate.

  •	 The KGGP adequately addressed its mission of improving and
     supporting law enforcement; prosecution and court; prevention
     and education; corrections and community corrections; drug
     treatment; planning, evaluation, and technology improvement;
     and crime victim and witness programs by awarding a total of
     $13,646,190 in 2006 JAG and Recovery Act JAG funding to
     54 subrecipients aimed at addressing the purpose areas
     established in its applications for Grant Nos. 2006-DJ-BX-0038
     and 2009-SU-B9-0030.

      However, we found that the KGGP’s monitoring activities and
management of subrecipient files were not sufficient to prevent
instances of inaccurate Progress and Recovery Act Reports or
unapproved subrecipient expenditures. Specifically, we found:

  •	 Instances of unapproved subrecipient expenditures, including a
     subrecipient that charged 16 positions to the subgrant when
     budget documentation only approved 10. This was subsequently
     remedied with an amendment to the budget, which was
     approved by the KGGP. Additionally, we found that a
     subrecipient was charging and being reimbursed for overtime,
     which was not approved in the subgrant budget documentation.
     This resulted in the subrecipient being reimbursed $29,388 in
     excess of the approved subgrant budget for the period
     October 1, 2009, through December 31, 2009.

  •	 Only three of the six subrecipients sampled provided adequate
     and accurate support regarding Progress Reports submitted to
     the KGGP, two subrecipients did not provide accurate support for
     Progress Reports, and one subrecipient was not able to provide
     any supporting documentation for Progress Reports.

  •	 A change made to a subrecipient financial report was not

     notated, signed, and dated.




                                - 26 ­
      •	 The revised Recovery Act Report covering the period October 1,
         2009, through December 31, 2009, was generally accurate.
         However, we found that only 14 of 26 subrecipients' Job Creation
         and Retention Reports were accurate and supported, while 12 of
         26 subrecipients reported incorrectly on their Job Creation and
         Retention Reports, which are used to calculate the FTEs reported
         on the Recovery Act Report.

      Overall, we believe that the KGGP’s policies and procedures, if
followed, will allow them to adequately manage Recovery Act funds.

Recommendations

        We recommend that the BJA ensures that the KGGP:

1.	     Utilize its training and technical assistance procedures to reduce
        the likelihood of inaccurate Progress and Recovery Act Reports.

2.	     Work with the subrecipient to remedy the excess
        reimbursements received for overtime not approved in the
        subgrant budget.

3.	     Enhance subrecipient monitoring activities to reduce the
        likelihood of inaccurate Progress and Recovery Act Reports or
        unapproved subrecipient expenditures.

4.	     Implement policies to ensure any changes made to FSRs or any
        other documents in the subrecipient grant files are notated,
        signed, and dated in order to track changes in grant-related
        documentation.

5.	     Utilize the continuous correction data rule to ensure the
        Recovery Act FTE data reported to FederalReporting.gov is
        verified and accurate.




                                   - 27 ­
                                                           APPENDIX I

         OBJECTIVE, SCOPE, AND METHODOLOGY


       The purpose of our audit was to determine whether costs
claimed under these grants were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) grant requirements;
(2) internal control environment; (3) cash management; (4) program
income; (5) grant expenditures; (6) supplanting; (7) management of
subrecipients; (8) Financial Status Reports (FSR), Progress Reports,
and Recovery Act Reports; and (9) program performance and
accomplishments.

       We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

      Our audit scope covered the Recovery Act JAG grant and the
most recent JAG grant that had sufficient expenditures to
appropriately test both grantee and subrecipient transactions. As
shown in Exhibit 7, we analyzed the KGGP general ledger transactions
for the JAG grants awarded between October 2005 and March 2009
and found that Grant Nos. 2006-DJ-BX-0038 and 2007-DJ-BX-0059
contained the most expenditure transactions.

        EXHIBIT 7.	 KGGP EXPENDITURE 

                    TRANSACTIONS BY GRANT

                                             EXPENDITURE
                 GRANT AWARD
                                            TRANSACTIONS
                2006-DJ-BX-0038                   1,432
                2007-DJ-BX-0059                     481
                2008-DJ-BX-0001                      27
                2008-DJ-BX-0736                       6
                2009-DJ-BX-0092                      29
                2009-SU-B9-0030                     193
        Source: KGGP




                                  - 28 ­
      We reviewed the transactions for JAG Grant
Nos. 2006-DJ-BX-0038 and 2007-DJ-BX-0059 and found that
excluding subrecipient and payroll transactions, there were
4 grantee expenditure transactions for Grant No. 2007-DJ-BX-0059
and there were over 25 transactions for Grant
No. 2006-DJ-BX-0038, meaning there would be sufficient grantee
transactions for transaction testing in Grant No. 2006-DJ-BX-0038.
Therefore, we determined that our audit scope included the
Recovery Act JAG Grant No. 2009-SU-B9-0030 and the 2006 JAG
Grant No. 2006-DJ-BX-0038.

       Our audit concentrated on, but was not limited to, the award
start date on October 1, 2005, through December 29, 2009, for
Grant No. 2006-DJ-BX-0038, and the award start date on March 1,
2009, through February 4, 2010, for Grant No. 2009-SU-B9-0030.
The KGGP had drawn down the total award amount of $2,035,999
for Grant No. 2006-DJ-BX-0038 on August 14, 2006, and
$12,660,141 for Grant No. 2009-SU-B9-0030 on May 20, 2009.

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial
Guide, award documents, Code of Federal Regulations, and Office of
Management and Budget Circulars.

       In conducting our audit, we performed sample testing in five
areas, which were grant expenditures, including payroll; management
of subrecipients; FSRs; Progress Reports; and Recovery Act Reports.
In this effort, we employed a judgmental sampling design to obtain
broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. For Grant
No. 2006-DJ-BX-0038, we identified samples of 50 grant expenditures;
6 of 12 KGGP employees covering 2 pay periods; 3 of 45 subrecipient
monitoring reports; 4 of 16 FSRs; and the last Progress Report,
including 6 of 45 subrecipients’ Progress Reports. For Grant
No. 2009-SU-B9-0030, we identified samples of 50 grant expenditures
and 1 of 2 Recovery Act Reports. Additionally, we reviewed all 4 KGGP
employees covering 2 pay periods; the only 2 subrecipient monitoring
reports; the only 3 FSRs; and the only Performance Measurement Tool
Report as of the week of our initial fieldwork, beginning December 7,
2009. This non-statistical sample design does not allow for projection
of the test results to the universes from which the samples were
selected.



                                 - 29 ­
      In addition, we assessed the grantee’s monitoring of
subrecipients; reviewed the timeliness and accuracy of FSRs, Progress
Reports, and Recovery Act Reports; and evaluated performance to
grant objectives. However, we did not test the reliability of the
financial management system as a whole and reliance on computer
based data was not significant to our objective.




                                - 30 ­
                                                                  APPENDIX II

                   GRANT NO. 2006-DJ-BX-0038

                      SUBGRANT PROJECTS



     For Grant No. 2006-DJ-BX-0038, the State of Kansas awarded
48 subgrants, totaling $2,118,210, covering the period July 1, 2006,
through September 30, 2009. 26 The breakdown by state fiscal years is
shown in Exhibit 8.

EXHIBIT 8.	 SUBGRANTS AWARDED FOR GRANT
            NO. 2006-DJ-BX-0038
                                     NUMBER OF
       AWARD PERIOD              SUBGRANTS AWARDED          DOLLARS AWARDED
  07/01/2006 – 06/30/2007              32                      $1,383,753
  07/01/2007 – 06/30/2008              11                         577,032
  07/01/2008 – 06/30/2009               3                         123,960
  07/01/2009 – 09/30/2009               2                          33,465
Source: KGGP

      Below is a list and description, by purpose area, of the subgrant
projects funded by Grant No. 2006-DJ-BX-0038.27

Law Enforcement

   •	 El Dorado Police Department received grant funding to

      purchase a computerized bar-coding system to manage

      evidence, contraband, and other properties.


   •	 Coldwater City Marshal’s Office received grant funding to
      purchase restraint equipment and a computer.

   •	 Lawrence Police Department received grant funding to

      continue to obtain, process, and enhance audio evidence.





      26
         A KGGP official explained that for Grant No. 2006-DJ-BX-0038, the KGGP
awarded $2,118,210 in subawards. However, only $1,972,704 of the subawards had
been expended by the subrecipients and the remaining funds were deobligated.
      27
         We did not conduct testing to determine whether each subrecipient had
accomplished the goals and objectives of their subgrant.


                                      - 31 ­
•	 City of Newton Police Department received grant funding to
   support its multijurisdictional drug task force program that
   focuses on interdiction of drug traffic.

•	 Johnson County Sheriff received grant funding to purchase a
   comparison microscope and a glass refractive index
   measurement system to analyze trace evidence.

•	 Sunflower House received grant funding to provide forensic
   interviews, medical evaluations, and case reviews for
   investigations of child sexual and physical abuse in collaboration
   with district attorney’s offices, law enforcement, Social and
   Rehabilitation Services, and mental health providers for Johnson
   and Wyandotte Counties.

•	 Leavenworth County Sheriff’s Office received grant funding
   to support a video enhancement system that analyzes and
   produces photographs from surveillance videos, as well as,
   fingerprint analysis equipment.

•	 Burlingame Police Department received grant funding to
   purchase taser guns.

•	 Osage County Sheriff’s Office received grant funding to
   support a child crime investigator position.

•	 Plainville Police Department received grant funding to
   purchase taser guns for three law enforcement jurisdictions in
   the county.

•	 Scott City Police Department received grant funding to
   purchase taser guns for its full-time officers.

•	 Kansas Bureau of Investigation received grant funding to
   purchase laboratory equipment, including three SPEX
   CrimeScopes ALS’s for the KBI Latent Section for fingerprint
   detection and a Gas Chromatograph/Mass Spectrometer for
   confirmation of drugs in DUI, date rape crimes, and postmortem
   analysis with the primary goal of reducing backlog and
   turnaround times.

•	 Prairie Advocacy Center received grant funding to provide its
   coordinated multidisciplinary team approach in child sexual



                              - 32 ­
     assault cases to enhance prosecution and to work with children
     and families to reduce trauma and revictimization.

  •	 Sumner County Sheriff’s Department received grant funding
     to purchase five in-car video cameras.

  •	 Wellington Police Department received grant funding to
     purchase taser guns.

  •	 City of Brewster received grant funding to support the Quad
     County Drug Task Force, which focuses on disrupting drug
     trafficking in Sherman, Thomas, Logan, Wallace, and Greeley
     Counties.

  •	 University of Kansas Medical Center Police Department
     received grant funding to purchase a video and audio recording
     system for one patrol car.

  •	 Arkansas City Police Department received grant funding to
     purchase training equipment and provide training to address the
     city's crime problems.

  •	 Baxter Springs Police Department received grant funding to
     purchase equipment for its officers.

  •	 Western Kansas Child Advocacy Center received grant
     funding to increase prosecution of child abuse offenders and
     lessen the trauma to child victims by providing a well-trained
     forensic interviewer.

  •	 Independence Police Department received grant funding to
     install in-car video cameras in squad cars.

Prevention and Education

  •	 Family Service and Guidance Center received grant funding
     to provide prevention services to high school students who have
     committed or are at-risk to commit an act of school violence.

Prosecution and Courts

  •	 Kansas Attorney General’s Office received grant funding to
     support an assistant attorney general who provides assistance to
     county attorneys prosecuting homicide cases.


                                - 33 ­
  •	 Shawnee County District Attorney’s Office received grant
     funding to maintain a domestic violence prosecutor and
     victim/witness specialist to better serve victims’ needs.

Corrections and Community Corrections

  •   Twenty-eighth Judicial District Community Corrections
      received grant funding to reduce the incidents of absconding and
      court referrals among non-violent offenders by providing
      opportunities to change behavior and provide a monitoring
      program that provides support and location of absconders.

  •   Kansas Coalition Against Sexual and Domestic Violence
      received grant funding to provide batterer intervention services
      for department of corrections inmates and parolees identified as
      domestic violence offenders.

Drug Treatment

  •	 Cowley County Community Corrections received grant
     funding to provide drug and alcohol treatment services to
     identify and address a broad range of psychological, social, drug,
     and alcohol-related problems for adult offenders.

  •	 Northwest Kansas Community Corrections received grant
     funding to provide a methamphetamine specific treatment
     program for adult offenders.

  •	 Twenty-fifth Judicial District Community Corrections
     received grant funding to provide offenders with access to
     intensive outpatient substance abuse treatment.

  •	 Four County Mental Health Center received grant funding to
     support its intensive outpatient treatment program to divert
     offenders with co-occurring mental health disorders from further
     involvement in the legal system.

  •	 Reno County Community Corrections received grant funding
     to enhance the availability of its adult and juvenile substance
     abuse treatment services and provide after-hour juvenile
     surveillance for those assigned to intensive supervision
     probation.



                                - 34 ­
  •	 Kansas Department of Corrections received grant funding to
     fund the Therapeutic Community Program, which treats medium
     custody male offenders housed at Hutchinson Correctional
     Facility.

  •	 Fourth Judicial District Community Corrections received
     grant funding to support its parental monitoring programs. This
     program uses the Parenting with Love and Limits curriculum,
     which provides individual and family therapy sessions to
     juveniles and parents.

  •	 Johnson County Department of Corrections received grant
     funding to provide long-term in-patient substance abuse
     treatment to chronic substance abusers and reduce the rate of
     recidivism among adult drug and alcohol dependant offenders.

Information Technology

  •	 Winfield Police Department received grant funding to
     purchase a live scan fingerprinting unit, which is integrated with
     the department’s record management system and the Kansas
     Automated Fingerprint Identification System.

  •	 Douglas County District Attorney’s Office received grant
     funding to install the Kansas Prosecutor System statewide and
     provide enhanced functionality.

  •	 City of Ottawa Police Department received grant funding to
     purchase and install hardware and software to implement mobile
     computing for patrol cars.

  •	 Independence Police Department received grant funding to
     purchase an Automated Fingerprint Identification System.

  •	 Kansas Department of Administration received grant funding
     to support the oversight and management of the Kansas
     Criminal Justice Information System.




                                - 35 ­
                                                                APPENDIX III

                  GRANT NO. 2009-SU-B9-0030

                     SUBGRANT PROJECTS



     For Grant No. 2009-SU-B9-0030, the State of Kansas awarded
26 subgrants, totaling $11,527,980, covering the period of July 1,
2009, through June 30, 2011. Below is a list and description, by
purpose area, of the subgrant projects funded by Grant
No. 2009-SU-B9-0030. 28

Law Enforcement

   •	 Ottawa Police Department received grant funding to retain
      the School Resource Officer at Ottawa High School.

   •	 Newton Police Department received grant funding to create a
      School Resource Officer position.

   •	 City of Kechi Police Department received grant funding to
      create a patrol officer position.

   •	 Kansas Bureau of Investigation received grant funding to
      retain three Senior Special Agents and create a Special
      Investigator, Laboratory Technician, and DNA Scientist positions.

Prosecution and Courts

   •	 Attorney General’s Office received grant funding to retain a
      statewide Criminal Prosecutor, the DARE Coordinator, and to
      create a new position for a Criminal Investigator position.

   •	 Kansas Supreme Court received grant funding to reduce
      anticipated unpaid furlough days for approximately 1,484
      non-judicial court employees statewide and to reduce anticipated
      statewide court closings and interruption in the criminal justice
      system.

   •	 State Board of Indigents’ Defense Services received grant
      funding to retain Public Defender positions.

      28
         We did not conduct testing to determine whether each subrecipient had
accomplished the goals and objectives of their subgrant.


                                      - 36 ­
Planning, Evaluation and Technology Improvement

  •	 Kansas Highway Patrol received grant funding to purchase
     equipment for Troopers in the north central and western portion
     of the state with Mobile Data Units. The Units provide the
     officers with more expedited information while in the field
     responding to criminal violations.

Corrections and Community Corrections

  •	 Larned Juvenile Correctional Facility received grant funding
     to retain three Juvenile Corrections Officers.

  •	 Kansas Department of Corrections received grant funding to
     retain 10 Parole Officers, 12 Special Enforcement Officers, and
     37 Intensive Supervision Officers in Sedgwick County.

  •	 Kansas Juvenile Correctional Complex received grant

     funding to retain seven Juvenile Correctional Officers.


  •	 Juvenile Justice Authority received grant funding to retain
     10 Intensive Supervision Officers in Sedgwick County.

  •	 Twelfth Judicial District Community Corrections received
     grant funding to retain a Case Manager position in order to not
     disrupt supervision of offenders.

  •	 Eleventh Judicial District Community Corrections received
     grant funding to retain an Intensive Supervision Officer position
     for 2 months.

  •	 Northwest Kansas Community Corrections received grant
     funding to retain a High Risk Officer position.

  •	 Twenty-fifth Judicial District Community Corrections
     received grant funding to retain an Intensive Supervision Officer
     position.

  •	 Santa Fe Trail Community Corrections received grant funding
     to retain an Intensive Supervision Officer position.

  •	 Fourth Judicial District Community Corrections received
     grant funding to retain a Risk Reduction Specialist position.


                                - 37 ­
•	 Eighth Judicial District Community Corrections received
   grant funding to retain Intensive Supervision Officer Assistant
   position.

•	 Johnson County Department of Corrections received grant
   funding to retain a Relapse Prevention Specialist position.

•	 Montgomery County Community Corrections received grant
   funding to retain an Intensive Supervision Officer position.

•	 Twenty-fourth Judicial District Community Corrections
   received grant funding to retain an Intensive Supervision Officer
   position.

•	 Reno County Community Corrections received grant funding
   to retain a Surveillance Officer position and an Intensive
   Supervision Officer position.

•	 Riley County Community Corrections received grant funding
   to retain a Risk Reduction Specialist position.

•	 Sedgwick County Department of Corrections received grant
   funding to retain two Intensive Supervision Officer positions.

•	 Thirty-first Judicial District received grant funding to retain
   an Administrative Assistant position for the community
   corrections program.




                              - 38 ­
                                                                                 APPENDIX IV
                                                   U.S. Department of Justicr----------l

                                                   Office of Justice Programs

                                                   O.tJice ()f Audit. Assessment, and Mana}?fmellf



                                                   HtH/rjllghm. J).C 20S}!
     MAY 0 62010

MEMORANDUM TO:                David M. Sheercn
                              Regional Audit Manager
                              Office ofthe Inspector Gcncml
                              Denver Regional Audit Office

FROM:                         M.aureen A. Hcnneberg '\ " . J ~J /0 I ,~/fdu\ ___
                              Director               /' YL,; {~.- C

SUBJECT:                      Response to the Draft Audit Report, qDice o.lJustice Programs,
                              Edward Byrne Memorial Justice Assistance Grant Program Grants
                              Awarded to the Qfftce o/the Governor (~f Kansas, Topeka, Kansas

'nlis memorandum is in response to your correspondence, dated April 16,20 I 0, transmitting the
subject draft audit report to the Officc of Justice Programs (OJP). The Kansas Governor's Grants
Program (KGGP) is a component of the Office of the Governor of Kansas, and is responsible for
administering their grant awards. We consider the ~ubject report resolved and request written
acceptance of this action from your otl1ce.

The report contains five recommendations and no questioned costs. For ease of review, the draft
audit report recommendations are restated in bold and are followed by OJP's response.

I.      We recommend that the Bureau of Justice Assistance (BJA) ensures that the KGGP
        utilize its training and technical assistance procedures to reduce the likelihood of
        inaccurate Progress and Recovery Act Reports.

        We agree with the recommendation. We will coordinate with KGGP to obtain a copy of
        implemented procedures ensuring that KGGP utilizes its training and technical assistance
        procedures to reduce the likelihood of inaccurate Progress and Recovery Act Reports.

2.      We recommend that the BJA ensures that tbe KGGP work with the sub recipient to
        remedy the excess reimbursements received for overtime not approved in the
        subgrant budget.

        We agree with the recommendation. We will coordinate with KGGP to ensure that they
        work with the subrccipicnt to remedy the excess reimbursements received for overtime
        not approved in the subgrant budget.




                                             - 39 -
3.     We recommend tbat the BJA ensures tbat the KGGP enbance subrecipient
       monitoring activities to reduce the likelihood of inaccurate Progress and Recovery
       Act Reports or unapproved subrecipient expenditures.

       We agree with the recommendation. We will coordinate with KGGP to obtain a copy of
       implemented procedures ensuring that subrecipient monitoring activities are enhanced to
       reduce the likelihood of inaccurate Progress and Recovery Act Reports, or unapproved
       sUbrecipient expenditures.

4.     We recommend that the BJA ellsures that tbe KGGP implement polides to ensure
       any changes made to Federal Financial Reports (FFRs) or any other documents in
       thesuhrecipienLgrant.fiJes..arenotat~.sjgned,anddated in order to track-.changes
       in grant-related documentation.

       Wc agree with the recommendation. We will coordinate with KGGP to obtain a copy of
       implemented procedures ensuring that any changes made to FFRs or other documents in
       the subrecipient files are notated, signed, and dated in order to tmck changes in grant­
       related documentation.

5.     We recommend that the BJA ensures that the KGGP utilize the continuous
       correction data rule to ensure the Recovery Act Fl'E data reported to
       FcdcralReporting.gov is verified and accurate.

       We agree with the recommendation. We will coordinate with KGGP to obtain a copy of
       implemented procedures to ensure that Recovery Act Full Time Equivalent (FTE) data
       reported to the rederalReporting.gov is verified and accurate, utilizing the continuous
       correction data rule.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeftery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jetlcry A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       i\ manda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Karen Johnson
       Program Manager
       Bureau of Justice Assistancc



                                               2




                                             - 40 -
cc:   Richard P. Theis
      Assistant Director
      Audit I -iaison Group
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20100668




                                     3




                                    - 41 -
,...-------------------------11APPENDIX V                                                                      11-----,
         ~---............~                                                       Mark Parkinson, Governor
     KANSAS
     C)FFICE OF THE GOVERNOR                                                             www,governor,k:"gov


       May 5, 2010

       David \II. Sheeren
       Regional Audit Manager
       U. S. Department of Justice
       OlJiee of the Inspector G,,'l1erai
       Denver Regional Audit Office
       1120 l.incoln, Suite 1500
       Denver, CO 80203



       This letter is in response to the Offiee of Inspector General's (OIG) draft audit rep01t issued
       on April 16, 2010. The report was in regard to the Federal Edward Byrne Memorial Justice
       A<;sistance Grant Program (JAG) and our response to the recommendations is described
       below.

           l.   Utilize its training and technical assistance procedures to reduce the likelihood
                of inaccUI-ate ...·ogress and Recovel,), Ad Repot·ts.
                    II. The Governor's Grants Program has incorpomtcd procedures to provide
                        training on the reporting requiremelll~ for the JAG program. The training \....ill
                        eonsi:;t of speeific inslnwlions on how to fill out lhe reports and what
                        documentation is required to support the data and information provided on the
                        report~. This training will take place at the beginning of each grant award
                        period. as well as follow up technical assistance provided by staff to each
                        subreeipient. In addition, staff will monitor compliance of the progress
                        reports by asking for supporting documentation to be submitted and
                        substantiated for at least one quarter on all progress reports.
                    b. The Job Creation and Retention Report has been revised to reflect the updated
                        federal guidance in calculating the number of hours worked. In addition, all
                        Recovery Act JAG subreeipiellt~ arc required to submit the supporting
                        documentation with the report. This wiIl allow stafr time to review and
                        suhstantiate the accuracy of the report Also, due to the recent changes made
                        on FederalReporting.gov stafl' <;<JJ1 now make corrections to the report should
                        any errors be discovered during our review process.

           2. '''ork with the subredptent to I'emedy the excess reimbursements received for
              ovel,time not apPI'oved in the subgl'ant bud~et.
                  a. The Governor's Grants Program staff has corrected the issue of excess
                      reimbun;ement hy requiring the subrecipient to revise it.;; budget to accurately
                      reflect how the funds are being ell.-pended. A budget revision was submitted
                      by the subreeipient to allow for overtime and was approved.
                  b. Wc have incorporated an additional instnlCtion on the Financial Status Report
                      to avoid funding positions other than those approved by the grant award.
                      SUbrecipienLs arc instnlClcd to provide the number of full-lime equivalent
                      (FTE) positions being funded with RA-JAG funds dUling each monthly




                                                    - 42 -
                                    reporting period The infOrmation must be provided in the Notes section of
                                    the Financial Status Report.

                     3. Enhance sub recipient monitoring activities to reduce the likelihood of inacclIrate
                        Progress and Recovery Act Reports or unapP.·oved subrecipient expenditures.
                               a.   Steps have been taken for subrecipients to receive additional training on
                                    reporting requirements and what is required for supporting documentation.
                                    Technical assistance also has been provided for each subrecipient following
                                    the trainings. The updated Job Creation and Retention Report has been
                                    distributed to subrecipients along with a \';-ebinar training on filling out the
                                    report and submitting backup documentation v.~th each report.
...   -   -   .
                     4.- fnrptcmenrpoticteslt,-ell!lUi'eliily--chan,cs· made to -FSRS-{FinlUiciaIStafus
                         RepOIis) or any other documents in the subrecipient grant files are notated,
                         signed and dated in order to track changes in grant-related documentation.
                               a. Staff is required to make all notations (at a minimum, date, initial and note as
                                  to the change) in the grant file or on administrative documentation if any
                                  changes are made.

                     5. Utilize the continuous con-ection data J'ule to ensure the Recovery Act FTE data
                        I'epolied to Fedel'aReporting,gov is verified and accu.-ate.
                               a.   As noted in the draft audit report, " ... the Recovery Act Report covering the
                                    period October 1, 2009, through December 21 , 2009, was generally accurate."
                                    The Job Creation and Retention Report has been changed to accurately reflect
                                    the updated federal guidance in calculating the number of hours worked.
                                    Training was held for all subrecipients regarding this change and the training
                                    included what information is required to be submitted with each report. All
                                    reports must be submitted with the supporting documentation each quarter.
                                    The informatIOn is reviewed tor accuracy and any discrepancy is corrected.
                                    The changes on FederaIReporting.gov, \Nhich now allows us the ability to
                                    continuously correct data affords us the ability to veriry the data more
                                    accurately and submit a valid report.

                  Overall, we agree with the ftndings of the report and believe that we have taken the
                  corrective actions to ensure compliance with the JAG progranl and the Recovery Act. We
                  thank you for the opportunity to review the draft report and provide comments. If there are
                  any additIonal questions regarding this response, please contact me.

                  Sincerelv.




                  Juliene Maska, Administrator
                  Kansas Governor's Grants Program




                                                     C,OVERNOR'S GR.-\~TS PROGRA7>1
                                                     (iX~i   291·3205 • h,x:   (78~}   291·:1204




                                                                  - 43 -
                                                         APPENDIX VI

          ANALYSIS AND SUMMARY OF ACTIONS

           NECESSARY TO CLOSE THE REPORT



       Pursuant to OMB Circular A-50 Revised, Audit Follow-up,
responses to audit reports are defined as “written comments by
agency officials indicating agreement or disagreement on reported
findings and recommendations. Comments indicating agreement on
final reports shall include planned corrective actions and, where
appropriate, dates for achieving actions. Comments indicating
disagreement shall explain fully the reasons for disagreement. Where
disagreement is based on interpretation of law, regulation, or the
authority of officials to take or not to take action, the response must
include the legal basis.”

1.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP specifying the procedures, trainings,
      and updated Job Creation and Retention Report implemented by
      the KGGP to reduce the likelihood of inaccurate Progress and
      Recovery Act Reports.

2.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP specifying the subrecipient budget
      revision and additional instructions regarding FSRs implemented
      by the KGGP to remedy the excess reimbursements one
      subrecipient received for overtime that was not approved in the
      subgrant budget.

3.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP specifying the procedures, trainings,
      and updated Job Creation and Retention Report implemented by
      KGGP to reduce the likelihood of inaccurate Progress and
      Recovery Act Reports, or unapproved subrecipient expenditures.

4.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP specifying the procedures implemented
      by KGGP to ensure that any changes made to FSRs or other
      documents in the subrecipient files are notated, signed, and
      dated in order to track changes in-grant related documentation.




                                 - 44 ­
5.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP specifying the procedures, trainings,
      and updated Job Creation and Retention Report implemented by
      KGGP to ensure that Recovery Act Full Time Equivalent (FTE)
      data reported to the FederalReporting.gov is verified and
      accurate.




                              - 45 ­
